HHS/OIG, Audit-"Audit of the Medicaid Drug Rebate Program in Nevada,"(A-09-03-00033)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Nevada," (A-09-03-00033)
August 15, 2003
Complete
Text of Report is available in PDF format (861 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate whether the Nevada Division of Health Care Financing
and Policy (the State agency) had established adequate accountability and internal controls over the Medicaid drug rebate
program.  We found that the State agency had not established adequate policies, procedures, and internal controls
over its drug rebate program.  Specifically, we identified weaknesses in the following areas:  (1) accounts receivable
system, (2) rebate billings, (3) interest accrual and collection, and (4) dispute resolution.  As a result, the State
Agency did not properly report drug rebate information to Centers for Medicare and Medicaid Services nor adequately establish
policies, procedures, and internal controls to account for drug rebate program transactions.  In addition, the lack
of adequate internal controls increased the risk for delayed collection of drug rebate funds and the potential loss of
interest that could have been collected.  The State agency concurred with our findings and recommendations.